HHS/OIG, Audit - "Review of Skilled Services at Heartland
Health Care Center of Bedford, Texas," (A-06-07-00045)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Skilled Services At
Heartland Health Care Center Of Bedford, Texas," (A-06-07-00045)
April 22, 2008
Complete Text of Report is available in PDF format
(1.56 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period July 2, 2002, through May 31, 2003, Medicare
overpaid Heartland Health Care (Heartland) $158,000 for 47 claims (out of 50
claims totaling $260,000) for skilled services that were not (1) medically
necessary at the level provided in a skilled nursing facility (SNF) and/or at
the Resource Utilization Group (RUG) level claimed or (2) adequately supported
by medical documentation.  Medicare pays SNFs a daily rate to cover skilled
services provided to Medicare beneficiaries.  For billing purposes, SNFs
complete an assessment form that places a patient in a specific payment group,
known as a RUG, based on the patients care and resource needs.
We recommended that Heartland refund to the Medicare
program $158,000 in overpayments and provide training to its staff on SNF
medical necessity and documentation requirements.  Heartland disagreed with our
findings and took issue with many aspects of the review.  However, we relied on
the knowledge and expertise of medical reviewers from a Medicare program
safeguard contractor; therefore, we stand by the findings and recommendations.